audit report



Return to the USDOJ/OIG Home Page



Office of Community Oriented Policing Services Grants to the City of Newark, Delaware,
Police Department
GR-70-00-007
December 22, 1999
Office of the Inspector General

EXECUTIVE SUMMARY
The Office of the Inspector General, Audit Division, has completed an audit of grants awarded by the U.S. Department of Justice, Office of Community Oriented Policing Services (COPS), to the Newark Police Department (Newark).  Newark was awarded a total of $318,075 in COPS grants to hire 3 new full-time sworn police officers and to redeploy 3.7 full-time-equivalent (FTE) sworn police officers to community policing.

Newark violated some grant conditions.

Newark did not develop a plan to track the redeployment of 3.7 FTEs under the MORE 96 grant; therefore, we recommend that $93,075 be put to a better use.

	The Financial Status Reports were inaccurate because they were based on estimated costs included in the approved grant budget.  Newark's actual fringe benefit costs were less than what was approved in the financial clearance memorandum for the UHP grant.

These items are discussed in the Findings and Recommendations section of the report.  The scope and methodology we used to perform the audit appear in Appendix II.